PROOF OF SERVICE
I, Parvin Heshmati, do hereby solemnly declare that on
November 15th, 2020,1 did cause to be delivered by mail a true
and correct copy of the foregoing instruments ("PETITION FOR
WRIT OF CERTIORARI plus exhibits and MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS") including
true and correct copies of all/any documents referenced therein
as "attached hereto", to the parties and locations listed below
except the one indentified by the Appellant, Appellant personally
served those:
0
/ (U&CA.

Parvin Heshmati
12309 Saratoga Creek Dr., Saratoga, CA, 95070
Tel: 408 873 8732
TO:
1. Delivery via U.S.P.S. courier mail with tracking number
Supreme Court of the United States
Attention: Clerk
1 First Street, NE
, gTH <?F A/oVf
Washington, DC 20543 0 N
[1 original]
2. Jan Chilton, Bernard J. korNberg or any other British or
Bar agent
Severson and Werson, APC.
One Embarcadero Center
Suite 2600
San Francisco, CA 94111, USA
By Petitioner through true filing
[just the petition and the exhibits by the petitioner]
3. Mister Sunil Kulkami
191 North First Street
San Jose, CA, 95113
By Petitioner through
[just the petition and the exhibits by the petitioner]
-38-

o PH

4. Miss Mary E. Arand
191 North First Street
San Jose, CA, 95113
By Petitioner through
Oust the petition and the exhibits by the petitioner]
5. All others through true filing, see electronic proof of
service
Oust the petition and the exhibits by the petitioner]

-39-

Additional material
from this filing is
available in the
Clerk's Office.

